WAIVER
Supreme Court of the United States
No. 20 - 1120
Melissa Belgau , et al.
(Petitioners)

v.

Jay Inslee, Governor of Washington , et
al .
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
x

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s) :
|

Washington Federation of State Employees, AFSCME Council 28

x

I am a member of the Bar of the Supreme Court of the United States.

I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
Signature /s/ Scott A. Kronland

Date:

3/15/2021

(Type or print) Name. Scott A. Kronland
x Mr .
Ms.

Mrs.

Miss

Firm Altshuler Berzon LLP

Address 177 Post Street, Suite 300
City & State San Francisco, CA

Phone

Zip 94108

(415) 421-7151

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE . PLEASE INDICATE BELOW THE NAME (S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED .
Alicia O. Young
James Abernathy
Cc: Freedom Foundation
Washington Office of the Attorney General
1125 Washington Street SE
P.O. Box 552
PO Box 40100
Olympia, WA 98507
Olympia, WA 98504-0100
jabernathy@freedomfoundation.com
alicia.young@atg.wa.gov
Obtain status of case on the docket. By phone at 202 - 479- 3034 or via the internet at
http:// www .supremecourtus. gov. Have the Supreme Court docket number available .

I

